Audit Report




OIG-14-016
Audit of the Bureau of the Fiscal Service’s Fiscal Years 2013
and 2012 Schedules of Non-Entity Government-Wide Cash
January 14, 2014




Office of
Inspector General
Department of the Treasury
                                            DEPARTMENT OF THE TREASURY
                                                   W ASHINGTON, D.C. 20220
            `

     OFFICE OF                                       January 14, 2014
INSPECTOR GENERAL




            MEMORANDUM FOR DAVID A. LEBRYK, COMMISSIONER
                           BUREAU OF THE FISCAL SERVICE

            FROM:                       Michael Fitzgerald
                                        Director, Financial Audit

            SUBJECT:                    Audit of the Bureau of the Fiscal Service’s
                                        Fiscal Years 2013 and 2012 Schedules of Non-Entity
                                        Government-Wide Cash


            I am pleased to transmit the attached audited Bureau of the Fiscal Service’s (Fiscal
            Service) Fiscal Years 2013 and 2012 Schedules of Non-Entity Government-Wide
            Cash (Schedules). Under a contract monitored by the Office of Inspector General,
            KPMG LLP (KPMG), an independent certified public accounting firm, performed an
            audit of the Schedules. The contract required that the audit be performed in
            accordance with generally accepted government auditing standards and applicable
            provisions of Office of Management and Budget (OMB) Bulletin No. 14-02, Audit
            Requirements for Federal Financial Statements.

            The following reports, prepared by KPMG, are incorporated in the attachment:

                    •   Independent Auditors’ Report;
                    •   Independent Auditors’ Report on Internal Control Over Financial
                        Reporting; and
                    •   Independent Auditors’ Report on Compliance and Other Matters.

            In its audit, KPMG found:

                    •   the Schedules present fairly, in all material respects, the balance of the
                        Fiscal Service’ Non-Entity Government-Wide Cash as of September 30,
                        2013 and 2012, in accordance with U.S. generally accepted accounting
                        principles,
                    •   certain deficiencies in internal control that were considered to be a
                        significant deficiency1 (described below), and



            1
              A significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is
            less severe than a material weakness, yet important enough to merit attention by those charged
            with governance.
Page 2


      •   no instances of reportable noncompliance with laws and regulations tested.

KPMG concluded that Fiscal Service’s general information technology controls do
not provide reasonable assurance that: (1) an adequate security management
program is in place; (2) access to computer resources (i.e., data, equipment, and
facilities) is reasonable and restricted to authorized individuals; (3) changes to
information system resources are authorized and systems are configured and
operated securely and as intended; and (4) incompatible duties are effectively
segregated. Collectively the conditions observed and reported on could compromise
the Fiscal Service’s ability to prevent the possible disclosure of entity-sensitive
information related to Government-Wide Cash to unauthorized individuals or entities
and ensure the reliability of key systems.

In connection with the contract, we reviewed KPMG’s reports and related
documentation and inquired of its representatives. Our review, as differentiated from
an audit performed in accordance with generally accepted government auditing
standards, was not intended to enable us to express, and we do not express, an
opinion on the Schedules or conclusions about the effectiveness of internal control
or compliance with laws and regulations. KPMG is responsible for the attached
auditors’ reports dated December 20, 2013, and the conclusions expressed in the
reports. However, our review disclosed no instances where KPMG did not comply, in
all material respects, with generally accepted government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a member
of your staff may contact Mark S. Levitt, Manager, Financial Audit at
(202) 927-5076.


Attachment

cc:   Richard L. Gregg
      Fiscal Assistant Secretary
                 U.S. DEPARTMENT OF THE TREASURY
                   BUREAU OF THE FISCAL SERVICE
Independent Auditors’ Reports and Schedules of Non-Entity Government-Wide Cash
                         September 30, 2013 and 2012
                               U.S. DEPARTMENT OF THE TREASURY
                                 BUREAU OF THE FISCAL SERVICE



                                          Table of Contents



                                                                            Page

Independent Auditors’ Report                                                 1

Independent Auditors’ Report on Internal Control Over Financial Reporting    3

Independent Auditors’ Report on Compliance and Other Matters                 6

Schedules of Non-Entity Government-Wide Cash                                 7

Notes to the Schedules of Non-Entity Government-Wide Cash                    8

Attachment – Management’s Response                                          10
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006

                                        Independent Auditors’ Report


Inspector General, U.S. Department of the Treasury
Commissioner, Bureau of the Fiscal Service:

Report on the Schedules

We have audited the accompanying Schedules of Non-Entity Government-Wide Cash (GWC) of the U.S.
Department of the Treasury’s Bureau of the Fiscal Service (Fiscal Service) as of September 30, 2013 and
2012 (hereinafter referred to as the Schedules) and the related notes to the Schedules.

Management’s Responsibility for the Schedules

Management is responsible for the preparation and fair presentation of these Schedules in accordance with
U.S. generally accepted accounting principles; this includes the design, implementation, and maintenance
of internal control relevant to the preparation and fair presentation of the Schedules that are free from
material misstatement, whether due to fraud or error.

Auditors’ Responsibility

Our responsibility is to express an opinion on these Schedules based on our audits. We conducted our
audits in accordance with auditing standards generally accepted in the United States of America; the
standards applicable to financial audits contained in Government Auditing Standards issued by the
Comptroller General of the United States; and applicable provisions of Office of Management and Budget
(OMB) Bulletin No. 14-02, Audit Requirements for Federal Financial Statements. Those standards and
OMB Bulletin No. 14-02 require that we plan and perform the audit to obtain reasonable assurance about
whether the Schedules are free from material misstatement.
An audit involves performing procedures to obtain audit evidence about the amounts and disclosures in the
Schedules. The procedures selected depend on the auditors’ judgment, including the assessment of the risks
of material misstatement of the Schedules, whether due to fraud or error. In making those risk assessments,
the auditor considers internal control relevant to the Fiscal Service’s preparation and fair presentation of
the Schedules in order to design audit procedures that are appropriate in the circumstances, but not for the
purpose of expressing an opinion on the effectiveness of the Fiscal Service’s internal control over financial
reporting related to GWC. Accordingly, we express no such opinion. An audit also includes evaluating the
appropriateness of accounting policies used and the reasonableness of significant accounting estimates
made by management, as well as evaluating the overall presentation of the Schedules.
We believe that the audit evidence we have obtained is sufficient and appropriate to provide a basis for our
audit opinion.




                                                                 1
                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
Opinion on the Schedules

In our opinion, the Schedules referred to above present fairly, in all material respects, the balance of the
U.S. Department of Treasury's Bureau of the Fiscal Service's Non-Entity Government-Wide Cash as of
September 30, 2013 and 2012 in accordance with U.S. generally accepted accounting principles.

Other Reporting Required by Government Auditing Standards

In accordance with Government Auditing Standards, we have also issued our report dated December 20,
2013, on our consideration of the Fiscal Service’s internal control over financial reporting related to GWC
and our report dated December 20, 2013, on our tests of its compliance with certain provisions of laws and
regulations related to GWC. The purpose of those reports is to describe the scope of our testing of internal
control over financial reporting and compliance and the results of that testing, and not to provide an
opinion on the internal control over financial reporting or on compliance. Those reports are an integral part
of an audit performed in accordance with Government Auditing Standards in considering the Fiscal
Service’s internal control over financial reporting and compliance.




Washington, D.C.
December 20, 2013




                                                     2
                                 KPMG LLP
                                 Suite 12000
                                 1801 K Street, NW
                                 Washington, DC 20006




             Independent Auditors’ Report on Internal Control Over Financial Reporting


Inspector General, U.S. Department of the Treasury
Commissioner, Bureau of the Fiscal Service:

We have audited, in accordance with the auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards issued
by the Comptroller General of the United States; and applicable provisions of Office of Management and
Budget (OMB) Bulletin No. 14-02, Audit Requirements for Federal Financial Statements, the Schedules of
the Non-Entity Government-Wide Cash (GWC) of the U.S. Department of the Treasury’s Bureau of the
Fiscal Service (Fiscal Service) as of September 30, 2013 and 2012 (hereinafter referred to as the Schedules)
and the related notes to the Schedules, and have issued our report thereon dated December 20, 2013.

Internal Control Over Financial Reporting

In planning and performing our audit of the Schedules as of September 30, 2013, we considered the Fiscal
Service’s internal control over financial reporting (internal control) related to GWC to determine the audit
procedures that are appropriate in the circumstances for the purpose of expressing our opinion on the
Schedules, but not for the purpose of expressing an opinion on the effectiveness of the Fiscal Service’s
internal control related to GWC. Accordingly, we do not express an opinion on the effectiveness of the
Fiscal Service’s internal control related to GWC. We did not test all internal controls relevant to operating
objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct, misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control, such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis. A
significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is less severe
than a material weakness, yet important enough to merit attention by those charged with governance.

Our consideration of internal control related to GWC was for the limited purpose described in the first
paragraph of this section and was not designed to identify all deficiencies in internal control related to
GWC that might be material weaknesses or significant deficiencies and therefore, material weaknesses or
significant deficiencies may exist that were not identified. Given these limitations, during our audit we did
not identify any deficiencies in internal control related to GWC that we consider to be material weaknesses.
However, we did identify certain deficiencies in internal control related to GWC described in Exhibit I that
we consider to be a significant deficiency in internal control related to GWC.




                                                                   3
                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.
The Fiscal Service’s Response to Finding

The Fiscal Service’s response to the significant deficiency identified in our audit is presented in a separate
Attachment to this report. The Fiscal Service’s response was not subjected to the auditing procedures
applied in the audit of the Schedules and, accordingly, we express no opinion on the response.

Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of internal control related to GWC
and the result of that testing, and not to provide an opinion on the effectiveness of the Fiscal Service’s
internal control related to GWC. This report is an integral part of an audit performed in accordance with
Government Auditing Standards in considering the Fiscal Service’s internal control related to GWC.
Accordingly, this communication is not suitable for any other purpose.




Washington, D.C.
December 20, 2013




                                                      4
                                                                                                     Exhibit I
                                     U.S. Department of the Treasury

                                        Bureau of the Fiscal Service

                        Schedules of Non-Entity Government-Wide Cash (GWC)

                  Significant Deficiency in Internal Control over Financial Reporting



Information Technology Controls Over Systems Managed by the Fiscal Service (Repeat Condition)

The Fiscal Service relies on an extensive array of information technology systems to manage the Non-
Entity Government-Wide Cash (GWC). Internal controls over these operations are essential to ensure the
confidentiality, integrity, and reliability of critical data while reducing the risk of errors, fraud, and other
illegal acts.

In our audit, we evaluated general information technology controls over key systems related to GWC.
General information technology controls are the structure, policies, and procedures that apply to an entity’s
overall computer systems. They include security management, access controls, configuration management,
segregation of duties, and contingency planning.

In our fiscal year 2013 audit, we noted that the Fiscal Service made progress in resolving identified security
weaknesses in its efforts to address this finding. Despite these improvements, our tests revealed that the
necessary policies and procedures to detect and correct information system weaknesses have not been
consistently documented, implemented, or enforced. The Fiscal Service’s general information technology
controls do not provide reasonable assurance that:

1. An adequate security management program is in place;

2. Access to computer resources (i.e., data, equipment, and facilities) is reasonable and restricted to
   authorized individuals;

3. Changes to information system resources are authorized and systems are configured and operated
   securely and as intended; and

4. Incompatible duties are effectively segregated.

Collectively the conditions we observed and reported on could compromise the Fiscal Service’s ability to
prevent the possible disclosure of entity-sensitive information related to GWC to unauthorized individuals
or entities and ensure the reliability of key systems.

Because of the sensitivity of the information, we issued a separate sensitive but unclassified report to the
Commissioner of the Bureau of the Fiscal Service detailing the conditions identified and our
recommendations for corrective action.

Management’s Response:

Management has prepared an official response presented as a separate attachment to this report.
Management agreed with our finding and their comments were responsive to our recommendations.




                                                       5
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                   Independent Auditors’ Report on Compliance and Other Matters


Inspector General, U.S. Department of the Treasury
Commissioner, Bureau of the Fiscal Service:

We have audited, in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards issued
by the Comptroller General of the United States; and applicable provisions of Office of Management and
Budget (OMB) Bulletin No. 14-02, Audit Requirements for Federal Financial Statements, the Schedules of
Non-Entity Government-Wide Cash (GWC) of the U.S. Department of the Treasury’s Bureau of the Fiscal
Service (Fiscal Service) as of September 30, 2013 and 2012 (hereinafter referred to as the Schedules), and
the related notes to the Schedules, and have issued our report thereon dated December 20, 2013.

Compliance and Other Matters

As part of obtaining reasonable assurance about whether the Schedules are free from material
misstatement, we performed tests of its compliance with certain provisions of laws and regulations related
to GWC, noncompliance with which could have a direct and material effect on the determination of
amounts reflected in the Schedules, and certain provisions of other laws and regulations specified in OMB
Bulletin No. 14-02. However, providing an opinion on compliance with those provisions was not an
objective of our audit, and accordingly, we do not express such an opinion.

The results of our tests disclosed no instances of noncompliance or other matters that are required to be
reported under Government Auditing Standards or OMB Bulletin No. 14-02.

Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of compliance and the result of that
testing, and not to provide an opinion on the Fiscal Service’s compliance. This report is an integral part of
an audit performed in accordance with Government Auditing Standards in considering the Fiscal Service’s
compliance. Accordingly, this communication is not suitable for any other purpose.




Washington, D.C.
December 20, 2013




                                                                  6
                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
                     U. S. DEPARTMENT OF THE TREASURY
                        BUREAU OF THE FISCAL SERVICE

                   Schedules of Non-Entity Government-Wide Cash
                            September 30, 2013 and 2012

                                    (In Thousands)


                                                                    2013             2012

Non-entity government-wide cash
(Notes 1 and 2)                                             $    82,994,049    $   79,386,988




             The accompanying notes are an integral part of these Schedules.

                                           7
                           U. S. DEPARTMENT OF THE TREASURY
                              BUREAU OF THE FISCAL SERVICE

                  Notes to the Schedules of Non-Entity Government-Wide Cash
                                  September 30, 2013 and 2012


NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

  A. Reporting Entity
     The Bureau of the Fiscal Service (Fiscal Service) is a bureau of the U. S. Department of the
     Treasury (Treasury). The Fiscal Service’s mission is to improve the quality of the Federal
     Government’s financial management. The Fiscal Service’s commitment and responsibility is to
     help its customers achieve success. The Fiscal Service does this by linking program and financial
     management objectives and by providing financial services, information, advice, and assistance to
     its customers. The Fiscal Service serves taxpayers, Treasury, federal program agencies, and
     government policy makers.

     The financial activities of the Fiscal Service are affected by, and are dependent upon, those of the
     Treasury and the Federal Government as a whole. Thus, the accompanying schedules do not reflect
     the results of all financial decisions and activities applicable to the Fiscal Service as if it were a
     stand-alone entity.

     Non-Entity accounts are those accounts that the Fiscal Service holds but are not available to the
     Fiscal Service in its operations. For example, the Fiscal Service accounts for certain cash that the
     Federal Government collects and holds on behalf of the U.S. Government or other entities. These
     schedules include the Non-Entity government-wide cash accounts.

     On October 7, 2012, the Department of the Treasury bureaus formerly known as the Financial
     Management Service and the Bureau of the Public Debt were redesignated as the Bureau of the
     Fiscal Service.

  B. Basis of Accounting
     The standards used in the preparation of the accompanying schedules are issued by the Federal
     Accounting Standards Advisory Board, as the body authorized to establish generally accepted
     accounting principles for Federal Government entities. Accordingly, the accompanying schedules
     are prepared in accordance with U.S. generally accepted accounting principles.

     The accompanying schedules are different from the financial reports prepared by the Fiscal Service
     pursuant to Office of Management and Budget directives that are used to monitor and control the
     Fiscal Service’s use of budgetary resources.

  C. Non-entity Government-Wide Cash
     Non-entity government-wide cash is held in depositary institutions or Federal Reserve accounts.
     Operating Cash of the U.S. Government represents balances from tax collections, customs duties,
     other revenue, federal debt receipts, and other various receipts net of cash outflows for budget
     outlays and other payments held in the Federal Reserve Banks, and foreign and domestic financial
     institutions. Outstanding checks are netted against operating cash until they are cleared by the
     Federal Reserve System.

                 This information is an integral part of the accompanying Schedules.

                                                   8
                           U. S. DEPARTMENT OF THE TREASURY
                              BUREAU OF THE FISCAL SERVICE

                  Notes to the Schedules of Non-Entity Government-Wide Cash
                                  September 30, 2013 and 2012


  C. Non-entity Government-Wide Cash (Continued)
      Federal agencies can deposit funds that are submitted to them directly into either a Federal Reserve
      Treasury General Account (TGA) or a local TGA depositary. The balances in local TGA accounts
      are transferred to the Federal Reserve Bank of New York’s (FRBNY) TGA at the end of each day.
      The TGA is maintained at the FRBNY and functions as the government’s checking account for
      deposits and disbursements of public funds. Tax payments are generally collected through the
      Electronic Federal Tax Payment System (EFTPS) or through a TGA Depositary. Cash in the TGA
      is restricted for government-wide operations.

      Other cash is mostly comprised of Automated Clearinghouse transfers, Electronic Fund transfers
      and U.S. currency held by U.S. disbursing offices.

NOTE 2. NON-ENTITY GOVERNMENT-WIDE CASH
  Non-Entity Government-Wide Cash includes the Operating Cash of the U.S. Government, managed by
  Treasury, and foreign currency maintained by various U.S. disbursing offices, at September 30, 2013
  and 2012, as follows (In Thousands):
                                                                       2013                2012
   Operating Cash of the U.S. Government:
   Held in the Federal Reserve Account                       $      88,385,906      $    85,445,838
   Outstanding Checks                                                (5,644,040)         (6,250,698)
   Subtotal                                                         82,741,866           79,195,140
   Other Cash                                                           192,125             127,849
   Subtotal                                                         82,933,991           79,322,989
   Foreign Currency                                                      60,058              63,999
   Total                                                     $      82,994,049      $    79,386,988


  Operating Cash of the Federal Government held by depositary institutions is either insured (for balances
  up to $250,000) by the U.S. Federal Deposit Insurance Corporation (FDIC) or collateralized by the
  depositary institution, or through securities held under reverse repurchase agreements.




                 This information is an integral part of the accompanying Schedules.

                                                   9
                          DE P AR T M E NT O F T H E T R E ASUR Y
                          BUR E AU O F T H E F I SC AL SE R VI C E
                                W ASH I NG T O N, DC 20227




                                           December 20, 2013



Mr. Andrew Lewis, Partner
KPMG, LLP
2001 M Street, NW
Washington, DC 20036

Dear Mr. Lewis:

This letter is in response to your reports on the Bureau of the Fiscal Service’s (Fiscal Service’s) (1)
Schedules of Non-Entity Government-wide Cash as of September 30, 2013 and 2012, and (2) Schedules
of Non-Entity Assets as of September 30, 2013 and 2012, and Non-Entity Costs and Custodial Revenue
for the years then ended.

We are pleased to receive an unqualified opinion on the Schedules and that no material weaknesses
related to internal control over financial reporting were noted in your report. We acknowledge the
significant deficiency and appreciate your feedback resulting from the audit of our security controls as we
continue to move forward to address this deficiency.

Fiscal Service is committed to having effective internal controls for our information technology (IT)
systems. Accordingly, we will continue to look for efficient and effective ways to improve and ensure the
consistent application of agency-wide security controls over all systems.



                                                Sincerely,




                                                    10
